No.

IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2021

ELIJAH VINES,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

PETITIONER'S MOTION FOR LEAVE TO
PROCEED IN FORM PAUPERIS

PURSUANT TO SUPREME COURT RULES 12 and 39, Respondent, ELIJAH
VINES, by and through his attorney MARK S. ROSEN of the Law Offices
of Rosen and Holzman hereby moves this Court for permission to
proceed on appeal in forma pauperis. In support of this Motion,
Counsel states that he has been appointed by the United States
Court of Appeals for the Seventh Circuit under the Criminal Justice
Act of 1964, as amended.
Dated at Waukesha, Wisconsin, this 9th day of September, 2021.

Mark S. Rosen
Attorney for Elijah Vines

Rosen and Holzman
400 W. Moreland Blvd., Ste. C
Waukesha, WI 53188
ATTN: Mark S. Rosen
(262) 544-5804
email: roseholz@sbcglobal.net

